                u.s. DEPARTMENT OF COMMERCE
                                                                ~    ~           ~
                          Office of Inspector General           \ ()8t...TESof
                                                                     ~          ",i
                                                                               t'




                         NATIONAL OCEANIC AND
                   ATMOSPHERIC ADMINISTRATION


                  Internal Controls/or Travel Cards at OAR's
                       Environmental TechnologyLaboratory
                                        Can be Strengthened


                          Audit Report No. BTD-14908-2/September 2002




                                            PUBLIC
                                            RELEASE


                            Office of Audits, Business and Trade Division

>,
I'"

:i;)/ "
1 Jt
'.
      ~    1
      t"   '
-~)''t.'. :;
d't,~
 ti 'I~'    .
                        f-V,                 UNITED STATES DEPARTMENT           OF COMMERCE
                        \~
                         ".. c::::tJ. ,j
                                        ;    The Inspector    General
                                             Washington. D.C. 20230
                           ~ATI!$d'''




                                               SEP 3 0 2002



MEMORANDUM FOR:                 Louisa Koch
                                Acting Assistant Administrator
                                Office of Oceanic and Atmospheric Research
                                National Oceanic and Atmospheric Administration. .
                                                                                ~.

FROM:



                                                 ~
SUBJECT:                       Internal     COnfr,
                                            1s r TravelCar~ ~onmental
                               TechnologyLab tory CanBe Strengthened
                               Final AuditR rt No. BTD-14908-2-0001

This is our final report on our audit of the Environmental Technology Laboratory's
(ETL's) internal controls over the use of travel cards. Regulations mandate that, with few
exceptions, federal employees use the card when on official travel. Employees are
responsible for ail costs charged. Those who misuse or fail to pay undisputed amounts
are subject to disciplinary action, and can have the cards canceled and their wages
garnished. Our review did not find any material misuse of the travel cards. The fvw
instances where use of the card appeared questionable were provided to ETL manag~
during the review and resolved. However, we found that certain aspects ofETL's
monitoring of travel cards needs improvement: ETL could not provide us with a list of
current cardholders, and did not always ensure that accounts were promptly closed when
employees left the.organization.

In response to the draft audit report, NOAA agreed with our recommendations for
improving ETL's management of its travel cards. NOAA stated that it was working with
Citibank to improve management of the travel card.program by providing ETL managers
with access to employees' travel card transactions. However, NOAA disagreed with our
conClusion that travel cards should not be used to pay for conference registration. fees.
NOAA said that the Department of Commerce Travel Handbook considered these costs
proper travel expenses if authorized on the travel voucher, and it would continue the
practice of using the travel cards for those expenses. NOAA's response is included in its
entirety as Attachment 1 to the report.

We appreciateNOAA's responseto our report and arepleasedthat NOAA is working
with Citibankto improveits managementof the travelcardprogram. We haverevised
the reportaccordingly. However,we disagreewith NOAAconcerningthe practiceof
using travel cardsto pay for conferenceregistrationfees.
U.S. Department of Commerce                                      Report No. BTD-J4908-2-0001
Office of I~ector General                                                     Sevtember 2002

Travel cards, like purchasecards,have increasinglybeen the subjectof recent
administration,congressional,andmediascrutiny. It has been our experiencethat
problems canbe avoidedby takingtimelyactionto proactivelyaddressproblematic
practices and to clarifYconflictingor confusingrules andregulations. In this case, we
will be fOlWardingthe conflictingguidancerelatingto the paymentof conference
registrationfees to the Department'sCFOfor resolution. In the interim,NOAA should
reconsiderits practice of usingthe travelcard to pay for conferenceregistrationfees.

NOAA acknowledges in its response that conference fees are business expenses.
Accordingly, the costs are expenses of the office and can be paid directly by the        .
government agency. Moreover, the DOC travel handbook section referred to in NOAA's
response does not specifically address using travel cards to pay for conference
registration fees. Rather, the section allows employees to be reimbursed for conference
fees that employees paid "out-of-pockef' by including the costs either on a travel voucher
or on a SF-1164, Claim for Reimbursement for Expenditures on Official Business,
depending upon where the conference was held. Finally, travel cards should not be used
to.pay registration fees for conferences held locally or at the employee's duty station.
Consequently, we reaffirm our recommendation that ETL discontinue the practice of
using travel cards to pay for business expenses not specifically related to official travel.

INTRODUCTION

ETL is one of l~ laboratories in the National Oceanic and Atmospheric Administration's
Office of Oceanic and Atmospheric Research. The laboratory creates advanced remote
sensors that use light, radio, and sound waves to monitor the oceans and atmosphere.
Remote sensing plays a critical role in understanding the interaction of the oceans and
atmosphere by collecting long term, high resolution, data setS needed for climate
modeling and prediction.                                              .

An audit of the DODIETLAdvancedSensorApplicationsProgramJoint Project
conductedby the Departmentof Defense's Officeof InspectorGeneral,with assistance
from our office,raised a numberof questionsaboutETL's financialmanagement. The
DOD 01G audit concludedthat ftomFY 1998throughFY 2000, ETL inappropriately
charged$1.6million of unrelatedor unsupportedcosts to thejoint project. As a result of
the DOD 01G's findings, our officedecidedto assess.ETL'sinternal controlsover its
financialmanagement. We dividedour audit focusinto three areas: (1) budgetaryand
financialpractices, (2) managementof travel cards,and (3) oversightof purchasecardS.
This report addressesonly ETL's managementof travel cards.
BACKGROUND

The GeneralServicesAdministrationbeganthe governmenttravelchargecard program
to controltravelpayments and expenses. The programcoverstravel chargecards,
automatedteller machine services~and GovernmentTransportationAccounts. The
Federal TravelRegulationmandatesthat governmentemployeesuse the card when
travelingon officialbusinessunlessthey have an exemption. Exemptionsare granted


                                              2
    us. Department of Commerce                                               Report No. BTD-14908-2-0001
    Qffice of Inspector General                                                           S?Jltember 2002

    only under certain circumstances, as when the employee travels infrequently, such as
    once a year. All uses other than for official travel are strictly forbidden. and misuse of
    the card can result in disciplinary action.

    Liability for charges incurred in usmg the travel card resides with the individual
    cardholders, and not the federal government. All undisputed charges must be paid in full
    by the cardholder by the statement due date. Failure to pay undisputed am01mtson time
    can result in the card being canceled. Accounts more than 61 calendar days past due are
    suspended. An account may be closed if it has been suspended two times during a 12-
    month period, is m.orethan 120 calendar days past due, or is misused. Once an account
    has been canceled, the card nonnally cannot be reinstated. Cancellations are reported to
    employees' supervisors and ~y result in disciplinary action. In addition, the bank may
    report cancellations to credit bureaus and request salary offsets from the agency. Once an
    accOlmt becomes 180 days past due, the bank writes it off as a bad debt and again notifies
    the credit bureaus. .

    Each bureau in the Department has responsibility for managing its own travel card
    program. The Office of the Secretary issues deparbnental policy and procedures on use
    of the card, conducts periodic reviews of the individual units' charge card programs, and
    monitors their compliance in disciplining employees who misuse the card. Under
    NOAA's current travel card policy, a program coordinator located at the agency's Office
    of Finance and Administration in Germantown, Maryland, oversees ETL's travel card
    program. Besides acting as the primary liaison between the traveler and the bank, the
    travel card coordinator submits credit card applications, monitors mont41y activity reports
    for inappropriate use or delinquencies, notifies an employee's immediate supervisor of
    any problems found, and closes accounts at the request of the cardholder's unit. ETL
    managers' responsibilities are primarily limited to requesting explanations ITopl
    employees concerning questionable charges and delinquencies, taking appropriate
    disciplinary action, and.notifying the.travel card program coordinator when accounts
    must be closed and returning the associated cards.

    Dming the time period coveredby our review, 68 ofETL's 73 federal employeeshad                         .

    travel cards.. ETL expended $782,871 on travel costs, of which approximately $492,700
    was paid directly to employees. both federal and nonf~era1, to cover travel costs such as
.   lodging,food, and car rentals. 1

    OBJECTIVE, SCOPE, AND MEmODOLOGY

    The objective of our audit was to assess the adequacy ofETL's internal controls over
    travel cards to ensure that employees used the cards properly and paid their bills on time.
    We focused on card charges incurred during fiscal year 2001. The scope of our audit was
    limited to ETL' s responsibilities for monitoring the cards.



    I Only federal employees can use travel cards. ETL's nonfederal employees pay their travel expenses with
    their own funds and are reimbursed upon completion oftbe trip.


                                                       3
u.s. Department of Commerce                                     Report No. BTD-14908-2-0001
Office ofInsDector General                                                   Swtember 2002

Our methodology included (1) interviews with Department, NOAA, and ETL managers
and travel coordinators, (2) reviews of pertinent documentation, including GSA Travel
Regulations; the DOC TRAVEL HANDBOOK Exhibit 301-51A, Policy and Procedures
for the Use of the Contractor-Issued Government Travel Charge Card; and audit reports
prepared by other Inspector General Offices, and (3) evaluations of financial information
such as travel voucher summary reports and travel card transactions. To determine
whether cards were used properly, we reviewed the fiscal year 2001 charge card"activity
list for ETL, looking for charges made near the cardholder's home or duty station,
purchases at retail stores, costs not covered by official travel, and excessive cash
Mvances. We also looked for delinquent payments and canceled cards, and verified that
travel cardholder files contained copies of the application form and signed Employee
Acknowledgment Statements. Our primary source of computer-processed data came
:fromnon-government systems, thus we did not test the reliability of the data.

We conducted the audit using information provided by the ETL in Boulder, Colorado, the
NOAA Office of Finance and Administration in Germantown, Maryland, and Citibank,
the Department's bankcard contractor. We performed our fieldwork ftom December
2001 through March 2002.

We performed the audit in accordance with Government Auditing Standards issued by the
Comptroller General of the United States, and under the authority of the Inspector
General Act of 1978, as amended, and Department Organization Order 10-13, dated May
22, 1980, as amended.

FINDING

We found that with few exceptions (as noted below), ETL employees used the travel card
for travel-related expenses such as food, lodging, and car rentals, and paid their credit
card biUs on time. However, to help ensure that ETL employees continue using the card
properly, the laboratory needs to strengthen its internal controls over the cards.

Specifically, we found that:

    .   ETL did not have a list of all travelcardholders. This informationis neededso
        that managerscan readilyidentifyemployeeswho have cards, obtaincards for
        employeeswho may need to travelmorethan once duringa year, and ensure that
        only individuals needing cards have them.                             .

    .   When employees left ETL, the laboratory did not always send copies of .the
        destroyed travel cards and appropriate paperwork to the travel card program
        coordinator as required by the Department's and NOAA's travel policies. This
        procedure helps ensure that departing employees no longer have access to their
        travel card accounts. For instance, we found that two former employees' accoun~
        remained open after they had left ETL. One employee retired in April 200 1. The
        employee's account remained open until January 2002. The other employee
        resigned in early January 2002. That individual's account remained open until


                                            4
u.s. Department of Commerce                                        Report No. BTD-I4908-2-0001
Qffice of Inspector General                                                     S~tember 2002

         February 6, 2002. Not promptly closing accounts leaves them vulnerable to
         IDlsuse.   .



    .    ThreeETL employeesused travelcardsto pay for non-travel-relatedbusiness
         expensessuch as scientificjournal subscriptions.Using a travel card for these
         types of costs is clearlyinappropriate.

    .    Three ETL employeesused theirtravel cardto pay for conferenceregistration
         fees. These costs are expensesof the officeand canbe paid directlyby the
         governmentagency. Travel cardscan neverbe used for conferencesheld locally
         or at the employee's duty station.

We recognize that ETL managers have limited access to their employees' charg~ card
records because the travel card reports proVide the information at the line office level.
However, NOAA has infonned us that it is working with Citibank to establish a Financial
Management Center (FMC) level report hierarchy. Since ETL is a FMC, the revised
report hierarchy will provide ETL's managers with access to employees' travel card
reports directly from Citibank's automated system. NOAA expects the project to be
completed by the end ofFY 2002. According to NOAA, providing FMCs access to the
travel card infonnation will permit the FMCs to better manage the travel card program.

In fhe meantime, ETL cardholders have signed statements, certified by their supervisors,
agreeing to follow the DOC travel handbook and acknowledging that the card is to be
used only for expenses incurred while on authorized government travel. Also, as noted in
01\18 Circular No. A-123, "Management Accountability and Control,» managers me
responsible for ensuring that programs, such as the government-wide travel program, "are
managed with integrity and in compliance with applicable law." Consequently, ETL
managers must make every,effort to administer the program as carefully and efficiently
as possible                                                                                '




RECOMMENDATIONS

We recommendthat the Directorof the EnvironmentalTechnologyLaboratorytakethe
followingactionsto strengthenETL's monitoringofits employees' use.of travel cards:
    1.      Develop a currentlist ofETL travel cardholdersand updateit as necessary.
    2.        Ensure that the travel accounts offonner employees are closed. To
              accomplish this, ~gers      should submit destroyed travel cards and-
              appropriate paperwork to the NOAA travel card program coordinator, and
              follow-up with either th~ coordinator or charge card contractor to ensure that
              accounts are closed.

    3.        Discontinuethe practiceof usingtravel cardsto pay for businessexpensesnot
              specificallyrelatedto officialtravel.



                                               5




                                                     .~---     ~    Ud~   uU   ~~----
    U.S. Department of Commerce                                            Report No. BTD-14908-2-0001
    Office of InsTJectorGeneral                                                         Sw.ember 2002

           4.      Annually, remind all navel cardholders that navel cards are to be used only
                   for official travel-related expenses such as air and rail tickets, transportation
                   services, lodging, food, automobile expenses, and fuel.



    NOAA COMMENTS

    NOAA conCUITedwith two of the four recommendations and concurred in part with the
    remaining two recommendations. Specifically, NOAA said that the Department of
    Commerce Travel Handbook Section 301-9.1 (e) Other Expenses, stipulates that
    reimbursement may be made for registration fees for attendance at meetings and
    conferences if specifically authorized on the travel order. Therefore, it would continue
    the practice of using the travel card to pay for those costs. NOAA also asked us to clarify
    our report to reflect that there have been instances when Citibank reinstated a canceled
    credit card, and that Citibank reports cancel1ations and not delinquencies to credit
    bureaus. NOAA further requested that we include a statement that it was working with
    Citibank to improve the management of the travel card program by providing financial'
    management centers, such as ETL, <lirectaccess to the travel card reports. Omently, the
    travel card report information is generated at the line office level. A copy of NOAA's
    response is included as Attachment 1 to.the report.

        OIG RESPONSE

        Weare pleased that NOAA is working with Citibank to improve its management of the
        travel card program by providing managers with direct access to travel card information,
        and have revised our report accordingly. We also clarified certain language in the report
        as NOAA requested. However, we believe that the travel card should not be used to pay
        for conference registration fees. As NOAA aclmowledges in its response, conference
.       registrationfees arebusiness expenses. Accordingly,the costs are expensesof the office
        rather than expenses to the individual employees and can be paid directly by the
        government agency.

        Moreover, the travel handbook section that NOAA refers to does not address using
        Government travel cards to pay for conference registration fees. Mandatory use of the
    .   Governmentcontractor-issuedtravelchargecardwas not requireduntil 1998,as a result.
        of Public Law 105-264. DOC Travel Handbook Section 301-9.1 is dated May 1990, and
        provides for employees to be reimbursed for "out-of-pocket" conference fee expenses
        (emphasis added). The employee can be reimbm:sedby including the fees on a travel
        voucher or on a Form 1164, Claim for Reimbursement for Expenditures on Official
        Business, depending upon whether the conference required travel or was held locally. In
        this regard, we believe it is preferable and more consistent with the principles of the
        Commerce Acquisition Manual (CAM) to use a purchase card for these costs. CAM
        Chapter 13, Purchase Card Procedures, Section 3-Operational Guidance and Procedures,
        specifically lists conference registration fees as an allowable purchase card expense.




                                                       6
u.s. Department of Commerce                                        Report No. BTD-14908-2-0001
Office of Inspector General                                                     September 2002

Finally, we discussed the apparent procedural conflicts with the Commerce Bank Card
Center, which responded that conference registration fees should not be paid with a travel
card because (1) the expense does not fall under tlie category of travel related expenses,
especially if the conferences are held loc3lly, and (2) using a travel card places the
responsibility for payment on the cardholder rather than the government. We also
discussed the issu~ with the Department's travel card coordinator who acknowledged that
the DOC travel handbook was outdated and should no longer include conference
registration fees as a miscellaneous travel related expense.

As appropriate, the Department needs to examine applicable policies and procedures to
identify any 'apparent conflicts between the use of the government travel card and the
purchase card. Accordingly, we will be refening this issue to the Department's CFO for
resolution.

                                     -----
Pleaseprovide your auditplan addressingthe recommendationswithin 60 calendardays,
in accordancewith DepartmentAdministrativeOrder213-5. The plan shouldbe in the
formatspecifiedin Exhibit 7 of the DAO. ShoUldyou have any questionsregardingthe
preparationof the audit actionplait,pl~e call MichaelSears,AssistantInspector
Generalfor Auditing,on (202)482-1934.


Attaclunent




cc:     Sonya Stewart, Chief Financial Officer/Chief Administrative Officer
        Dr. William D. Neff, Acting Director, ETL
        Mack A. Cato, Director, Audit, Internal Controls, and Information Management
        Office                                                 .




                                             7
     r       .           .
                                                                                                           ATTACHMENT
                                                                     r~",                                                   1


                                                                    !rJir~      UMTED      STATES   DEPARTMENT        OJ: cOMMERCE.
                                                                    \'!f'J
                                                                     ~~...",~
                                                                                NcKionaI Oceanic   end A1omOSpheric    Administration
                                                                                CHIEF FII'LANCIALOFFICERICI-IIEF ADMINISTRATIVE OFFICER
                                                                                     APR2'6 '3Jrl    /
 ~       .
:;!
:~




                          ~-      MEMORANDUM FOR: Mi.
                                                                                ~r       Generalfor Auditing
                      . ,..,r     FROM:
                 .'

                                  SUBJECT:                                to the Offi~ of InspectorGeneral(OIG)DraftInspection
                                                                    iItflntema1Controlsfor TravelCardsat OAR's Environmental
                                                                       ,logyLaboratory(BTL)Can be Strengthened
                                                                     1\.uditReportNo. B1D-14908-2-XXXX


                                  The National Oceanic and Atmospheric Administration (NOAA) appreciates the opportunity to
                                  respond to your draft fuspection report We concur with two of the four recommendations and
                                  concur, in J>3Itwith the two rem~iniT\grecommendations. While we agree that travel cards
                                  should not be used for othetbusiness expenses not specifically related to travel costs, we take
                                  exception to the recommendations to discontinue the use of travel caros for the payment of
                                  conference registration feeS. Acco~g to the Department of Commerce Travel Handbook:.
                                  payment of conference registration fees is considered a proper travel expense and permitted when'
                                  authorized on a travel order.

                                  Attachment.




                                    "    ,0<:.




                                     .   ,0<:

                                                           .'   ,


                                                           .,

                       V~


                        ~~
                             W   ~OG~dcd         Papa'
,   .'




                                    Internal Controls for .Tr;avelCards at OAR's Environmental
                                  Technology Laboratory (ETL) Can be Strengthened Draft Audit       -
                                              Report No.BID-14908-2-XXXXlMarch2002                       .


                 Recommended Chanees for Factual Information

                 OIG.Backgro1U1d, Para~ph          2:

                 NOM Comment: We request changes be ma~ to paragraph 2, line 6. so that it reads as .
                 follows: "Once an account has been canceled.the card is not nOrmallyreinstated... The reason for thiS .
                 change is to reflect the fact that 1herehave been instances where a cancelled Citibank card haSbeen             .


                 reinstated.   In addition. we request changes be made to paragraph 2, line 8 so that it teads as follows:
                 <'Inaddition, the bank may report cancellationsto credit bureaus and request salary offsets                 .

                 from the agency." The reason for this thange is' to reflect the met that the bank reports cancellations.
                 not delinquencies, wi1hthe Citibank card.                                      .   .'


                 OIG Finding Number 1: ETL did not have a liStof all travel card holders. This informationis
                 needed so that manageIS can readily identify employees who have cards. obtain cards for employees
                 who may need to travel more thap once a year, and ensure that only individuals needing Cardshave
                 them.                             .                  .'



                  NOAAComment: We reqUestthatthefollowingbe addedto this finding:"Currently,the Citibank
                  travelcardr~     are not a practicalmanagementtool at the FinancialManagementCenter
                  (FMC)level' The travel card reportsprovidecardholderinfonnation at the NOAALine Office
                  level. NOAAis working with CitJ.1>ank to establisha FMC levelreport hieIatchy. This projectis
                  expectedto be completedthis fiscalyear andwill_Ie NOAAFMCsto accesstravelcard
                  reports throughCitibank's automatedsyst~'- Citidirect. This capabilitywill allowFMCs.to .
                . be~ managethe travel card program.
                 NOAA Response to OIG Recommendations
                  .                                                                                                                  .
                 OIG Recommendations: WereconnnendthattheDirectorof EnvironmentalTechnologyLaboratory.
                 (E1L) take the folloWingactions to s~gthen       ETL's monitoring of its employees' use of travel cards.

                OIG Recommendation 1:. Develop a current
                                                    .
                                                         list ofE'lL travel caniholdets and update it as
                neces~.

            .    NOAA Response: ~OAA conCUIS.

                 OIG Recommendation 2: Ensure that the travel accounts offormer employees are closed. To .           .
                 accomplish thiS. manageIS should submit destroyed travel cards and appropriate papenvork to the
                NOAA ~vel
                        "-    card program coordinator, and follow-up with either the 'coordinator or charge card        .
                ContraCtorto ensure that accounts are closed..                                          .

                NOAA.1~esponse: NOAA concurs.

                OIG Recommendation 3: Discontinue the praptice of using tIavel cards to pay for conference
                registration fees and other business expensesnot specifically related to tIavel costs.
         "1..:/$-




                                                                 u-   - --   uu   - n   -- n u---            --
.'
     . ..'   ,".




                        NOAA Response: NOAA concurs'in part. We agree to not use travel cards to pay for business
                        expenses not specifically related to travel. However) we will continue the practice of using tIavel cards
                        to pay for business expenses specifically related to travel costs. such as.and including conference
                        registration fees in concert with the DepaI1Inent.ofCommerce Travel Handbook Section 301-9.1 (e)
                        Other Expenses. which stipulates. "..When authorized on a travel order. reimbursement may be made
                        for registration fees for attendance at meetings or conferences in connection with activities of the
                        Dep~t"

                        OIG Recommendation 4: Annually..remind all travel Cardholders that tl"avel caxds are to be used
                        only for travel re1ated expenses .such as air and rail tickets. tzansportation sem~ lodging. food.
                        automobile expens~ and fuel and niay not be used for conference registration fees and other.busmess
                        eXJX?DSes  not specifically related to travel costs.

                        NOAA Response:      NOAA concurs in part. We agree to.annually remind all travel cardholders that
                     . travel.c3rds are to be used only for travel expenses. however. travel expenses are to include conferenCe.
                        registration as per the Department of Commerce Travel Handboo~




                                                     ..




                             l ..~.,o(
                                 -




                                                                           2
                   ~~a'i-
